Audit Report




OIG-07-039
INTERNATIONAL ASSISTANCE: Survey of Treasury’s Trade
Facilitation Operations
May 29, 2007




Office of
Inspector General
Department of the Treasury
Contents


Audit Report................................................................................................. 3

    Results in Brief............................................................................................ 4

    Background ................................................................................................ 5

    Survey Results ............................................................................................ 7

        Trade Promotion Activities ....................................................................... 7

        Activities Related to Multilateral Development Banks................................... 11

        Treasury Input to the Annual National Export Strategy Report ...................... 16



Appendices

    Appendix     1:      Objectives, Scope, and Methodology…………………………........                                  17
    Appendix     2:      Office of International Affairs Simplified Organization Chart…….                      20
    Appendix     3:      Management Comments........................................................           21
    Appendix     4:      Major Contributors to This Report ...........................................         22
    Appendix     5:      Report Distribution................................................................   23

Abbreviations

    IA                   Office of International Affairs
    IDB                  Office of Multilateral Development Banks
    IDP                  Office of Development Policy
    ITF                  Office of Trade Finance and Investment Negotiations
    ITT                  Office of International Trade
    MDB                  Multilateral Development Bank
    OECD                 Organization for Economic Cooperation and Development
    OIG                  Office of Inspector General
    TPCC                 Trade Promotion Coordinating Committee
    USED                 United States Executive Director
    WTO                  World Trade Organization




                         INTERNATIONAL ASSISTANCE: Survey of Treasury’s                                    Page 1
                         Trade Facilitation Operations (OIG-07-039)
        This Page Intentionally Left Blank.




INTERNATIONAL ASSISTANCE: Survey of Treasury’s   Page 2
Trade Facilitation Operations (OIG-07-039)
                                                                         Audit
OIG
The Department of the Treasury
                                                                         Report

Office of Inspector General




                  May 29, 2007

                  Clay Lowery
                  Acting Under Secretary, International Affairs

                  The Department of the Treasury’s Office of International Affairs
                  (IA) advises and assists the Secretary and Deputy Secretary of the
                  Treasury in the formulation and execution of U.S. international
                  economic and financial policy, including development of policies
                  with respect to international finance, economic, monetary, trade,
                  investment, bilateral aid, environment, debt, development, and
                  energy programs. IA’s role includes providing advice and assistance
                  related to U.S. participation in international financial institutions
                  such as the multilateral development banks (MDB).

                  Pursuant to a request by current Representatives Donald Manzullo
                  and John Mica, and former Representative Sue Kelly, we surveyed
                  Treasury’s trade facilitation operations under the auspices of the
                  Trade Promotion Coordinating Committee (TPCC). The TPCC was
                  created to provide a unifying interagency framework to coordinate
                  U.S. export promotion and export financing activities and to
                  develop a government-wide strategic plan for such activities.

                  Our objectives were to identify (1) the offices involved in trade
                  facilitation within IA, (2) the offices’ missions and partners in
                  carrying out their missions, (3) how the offices promoted U.S.
                  exports, (4) how the offices measured and reported the results of
                  their trade promotion efforts, and (5) annual Treasury expenditures
                  associated with the promotion of U.S. exports.

                  We also (1) determined what guidance Treasury provided to U.S.
                  representatives at selected MDBs, (2) inquired as to how Treasury
                  tracked whether MDBs’ trade-capacity-building programs were

                  INTERNATIONAL ASSISTANCE: Survey of Treasury’s                 Page 3
                  Trade Facilitation Operations (OIG–07-039)
                      achieving the results expected by Treasury, and (3) determined
                      how Treasury programs or activities are selected for inclusion in
                      the annual National Export Strategy report issued by the
                      Department of Commerce.

                      To address these objectives, we interviewed officials and personnel
                      in IA and at selected MDBs. We also reviewed related documents.
                      We conducted our work during November and December 2006.
                      Appendix 1 contains a more detailed description of our scope and
                      methodology.


Results in Brief
                      IA staff identified the Office of International Trade (ITT), the Office
                      of Trade Finance and Investment Negotiations (ITF), the Office of
                      Multilateral Development Banks (IDB), and the Office of
                      Development Policy (IDP) to provide the requested information on
                      Treasury’s trade facilitation activities. Of these offices, IA staff
                      consider only ITT and ITF as conducting trade promotion activities.1
                      ITT and ITF’s primary functions are supporting the reduction of
                      subsidies and other trade barriers and the creation of a level playing
                      field for trade and U.S. exporters, rather than the promotion of
                      individual U.S. businesses. IA does not have performance measures
                      specifically related to trade promotion. Since their primary function
                      is to provide policy-related advice, ITT and ITF staff noted the
                      difficulty of instituting performance measures related to trade
                      promotion. Treasury’s budget authority related to trade promotion
                      compared to other agencies is relatively small. In this regard,
                      Treasury’s fiscal year 2006 budget for trade promotion was
                      $3 million.

                      IDB and IDP are responsible for MDB-related activities. MDBs are
                      international financial entities established to provide financial
                      support for projects and programs that promote social progress and
                      economic growth and development in developing countries. The

1
 Trade facilitation involves policies and procedures intended to assist the movement of goods across
borders (e.g. simplification of customs procedures). Trade promotion involves activities that increase
foreign and domestic business activity and investment, increase market access for U.S. exporters, and
strengthen productivity and competitiveness. Treasury informed us that they view only trade promotion
activities as falling under the auspices of the TPCC.


                      INTERNATIONAL ASSISTANCE: Survey of Treasury’s                            Page 4
                      Trade Facilitation Operations (OIG-07-039)
                       U.S. is the single largest shareholder at most of the MDBs. The
                       U.S. Executive Directors (USED) at the MDBs represent the U.S.
                       government on the MDB boards of directors. The USEDs are
                       responsible for promoting the priorities of the U.S. at the MDBs.
                       Treasury’s role with respect to USEDs is to ensure that they are
                       informed of the Administration’s views on relevant issues.
                       Guidance provided by Treasury offices to USEDs includes advising
                       on policies, loans, and grants and providing voting instructions on
                       MDB project proposals. IA staff track the status of all MDB projects
                       and maintain documentation on issues related to each. Treasury
                       follows the projects to determine whether they are adequately
                       addressing Treasury objectives and expectations in a particular area
                       and that they comply with legislative mandates.

                       Treasury's input to the annual National Export Strategy report
                       generally depends on which topics are selected for inclusion by the
                       TPCC Secretariat and Department of Commerce officials.
                       Treasury’s input to the report is limited to comments, adjustments,
                       and suggested additions to the selected topics. Treasury reviews
                       the draft report circulated by the TPCC Secretariat and provides
                       comments and adjustments, as needed.

                       We plan to provide this report to the Congressional requesters and
                       post it on our website. A draft copy of the report was provided to
                       IA for comment, and we incorporated suggested changes, as
                       appropriate. Management’s official response is included in
                       Appendix 3.


Background
                       TPCC, established by Congress in 1992, has a membership of 20
                       federal agencies.2 TPCC was created to provide a unifying

2
 TPCC is chaired by the Department of Commerce. In addition to Treasury and Commerce, TPCC
members include the Department of State, Department of Transportation, Department of Agriculture,
Department of Energy, Department of Defense, Department of Labor, Department of the Interior, U.S.
Agency for International Development, U.S. Trade and Development Agency, Environmental Protection
Agency, Small Business Administration, Overseas Private Investment Corporation, Export-Import Bank
of the United States, Office of the U.S. Trade Representative, Council of Economic Advisors, Office of
Management and Budget, National Economic Council/National Security Council, and Department of
Homeland Security.


                       INTERNATIONAL ASSISTANCE: Survey of Treasury’s                            Page 5
                       Trade Facilitation Operations (OIG-07-039)
                       interagency framework to coordinate U.S. export promotion and
                       export financing activities and to develop a government-wide
                       strategic plan for carrying out such activities. TPCC member
                       agencies provide training, market information, advocacy, trade
                       finance, and other services to U.S. companies, especially small-
                       and medium-sized businesses, seeking to export their products.
                       TPCC reports its activities to Congress annually in the National
                       Export Strategy report, which is largely drafted and compiled by
                       the Department of Commerce. Treasury’s fiscal year 2006
                       $3 million budget for TPCC-related activities accounted for a very
                       small share (less than 1 percent) of member agencies’ combined
                       budget authority of more than $1.5 billion.

                       The responsibilities of IA include developing policies and guidance
                       for the Department’s activities in the areas of international
                       monetary affairs, trade and investment negotiations, international
                       debt strategy, and U.S. participation in international financial
                       institutions. The Under Secretary for International Affairs
                       coordinates U.S. economic policies with the finance ministers of
                       other G73 industrial nations and prepares the President for annual
                       economic summits with those countries, as well as Russia. The
                       Assistant Secretary for International Affairs supports the Under
                       Secretary and supervises the Business Office and eight Deputy
                       Assistant Secretaries, who are each responsible for one or more
                       offices headed by a director. A simplified organization chart
                       focused on the offices within IA involved in trade facilitation
                       activities can be found in appendix 2.

                       Although ITT, ITF, IDB, and IDP’s activities may be considered as
                       supporting trade facilitation, IA staff identified ITT and ITF as the
                       offices primarily responsible for trade promotion activities within
                       Treasury.




3
  The G7 refers to the U.S., Japan, Germany, the United Kingdom, France, Italy, and Canada whose
finance ministers meet to discuss financial issues. The G8 includes Russia and encompasses meetings
of Heads of State, Finance Ministers, Foreign Ministers, and other government representatives. Russia is
not a full participant in the G7 finance discussions.


                       INTERNATIONAL ASSISTANCE: Survey of Treasury’s                             Page 6
                       Trade Facilitation Operations (OIG-07-039)
Survey Results

Trade Promotion Activities

                       Office of International Trade

                       ITT provides policy analysis and recommendations to senior
                       Treasury policymakers with respect to U.S. trade and financial
                       services policy, represents Treasury in interagency trade policy
                       deliberations, and participates in trade negotiations led by the U.S.
                       Trade Representative. Generally, ITT does not engage in trade
                       advocacy related to the promotion of individual U.S. businesses or
                       the export of goods. Such activities are performed mainly by the
                       Department of Commerce’s Advocacy Center, the Department of
                       State, and Congress.

                       ITT’s trade promotion activities include helping negotiate free trade
                       agreements and formulating U.S policy under the Trade Promotion
                       Authority.4 ITT staff also advocates U.S. positions in financial
                       services negotiations in the World Trade Organization (WTO),5
                       bilateral and regional free trade agreements, and bilateral
                       investment treaties. In this capacity, ITT consults closely with the
                       U.S. financial services sector, Congress, and U.S. regulators to
                       develop its negotiating position. ITT promotes conditions that are
                       supportive of international trade, including the reduction of trade
                       barriers and ensuring a level playing field in world trade. In this
                       effort, ITT provides input during trade negotiations and dispute
                       settlements, and endorses established priorities such as sustainable
                       growth, increased transparency, and private sector development. In
                       certain instances ITT may also advocate provisions beneficial to a
                       particular sector. While ITT receives advice from certain industry
                       groups, it typically advocates for the entire business sector.


4
 The Trade Promotion Authority, also known as fast-track authority, enacted as part of the Trade Act
of 2002, provides a framework for cooperation between the executive branch and Congress in trade
negotiations and includes a streamlined mechanism for congressional consideration of trade agreements.
The current Trade Promotion Authority is set to expire on July 1, 2007.
5
  The WTO is an international organization, consisting of nearly 150 countries, dealing with the global
rules of trade between nations. Its function is to ensure that trade flows as smoothly, predictably, and
freely as possible.


                       INTERNATIONAL ASSISTANCE: Survey of Treasury’s                              Page 7
                       Trade Facilitation Operations (OIG-07-039)
ITT also represents Treasury in (1) the Trade Policy Staff
Committee, which helps develop U.S. trade policy; (2) the Trade
Policy Review Group, and (3) the Committee for the
Implementation of Textile Agreements. The Trade Policy Staff
Committee and the Trade Policy Review Group are administered
and chaired by the U.S. Trade Representative and have voting
representatives from 19 federal agencies and offices, including
Treasury. These two groups comprise the subcabinet-level
mechanism for developing and coordinating the U.S. government
positions on international trade and trade-related investment issues.
If the Trade Policy Staff Committee cannot reach agreement or is
considering significant policy questions, the issues are then taken
up by the Trade Policy Review Group. Supporting the Trade Policy
Staff Committee are more than 90 subcommittees responsible for
specialized areas and several task forces that work on particular
issues. The Committee for the Implementation of Textile
Agreements, an interagency group chaired by the Department of
Commerce, is responsible for matters affecting textile trade policy
and for supervising the implementation of all textile trade
agreements. The Committee is comprised of the Departments of
Commerce, State, Labor, and Treasury and the U.S. Trade
Representative. ITT also works on trade policy issues outside of
these groups with other federal agencies, including the
Departments of Commerce, State, and Defense, and the U.S.
Agency for International Development.

Office of Trade Finance and Investment Negotiations

ITF focuses on the policy and negotiations aspects of both trade
finance and investment. Treasury does not consider its investment
work to be trade promotion and Treasury’s activities in this area
are not discussed here.

ITF is responsible for developing, implementing, and enforcing the
U.S. government’s international trade and aid finance policy. ITF’s
goal with respect to trade finance is to create and maintain a
market-based environment where subsidies in government
financing are minimized or eliminated. According to ITF officials,
minimizing official export subsidies increases the role of private
markets in international finance. This allows U.S. exporters to
compete fairly with foreign companies that are supported by


INTERNATIONAL ASSISTANCE: Survey of Treasury’s                 Page 8
Trade Facilitation Operations (OIG-07-039)
                        financing from their governments, and to do so at the lowest cost
                        to U.S. taxpayers.

                        Internationally, ITF carries out its work by representing the U.S. in
                        the Organization for Economic Cooperation and Development
                        (OECD)6 as the U.S. negotiator and technical expert on a wide
                        range of trade finance7 issues. ITF leads the U.S. position during
                        OECD negotiations on trade finance issues. Although ITF primarily
                        works within the OECD framework and with OECD member
                        countries, it has made efforts to improve bilateral trade relations
                        with the emerging markets and export credit agencies of Brazil,
                        Russia, India, and China, which are large players in world trade but
                        not OECD members. ITF currently has major outreach underway
                        with Brazil, India, and China.

                        Domestically, ITF oversees U.S. export financing and aid programs
                        to ensure that they comply with OECD rules. Such programs are
                        operated by a number of agencies, including the U.S. Agency for
                        International Development, Department of Agriculture, Export-
                        Import Bank, Maritime Administration, Overseas Private Investment
                        Corporation, and U.S. Trade and Development Agency.
                        Additionally, ITF consults with trade associations and industry
                        groups to identify and assess competitive issues as they arise, and
                        to analyze proposed solutions.

                        ITF advises Treasury officials on all trade and aid finance policy
                        issues as necessary, recommends positions, and coordinates the
                        U.S. position with other agencies. For example, ITF worked closely
                        for many months with senior Treasury officials and with staff from
                        the Department of Commerce, the Export-Import Bank, Office of
                        Management and Budget, U.S. Agency for International
                        Development and other agencies developing a mixed credit program
                        under TPCC auspices. The program is intended to increase U.S.


6
 OECD’s membership consists of 30 industrialized, market-economy countries. Representatives from
OECD countries meet to exchange information and harmonize policy for the purposes of maximizing
economic growth within member countries and helping nonmember countries develop more rapidly.
7
  Trade finance refers to the institutions, laws, regulations, and other systems related to the following
three activities: (1) the provision of capital to firms that are engaging in international trade transactions,
(2) the provision of support services to manage the risk involved in these transactions, and (3) the
provision of international payment mechanisms.

                        INTERNATIONAL ASSISTANCE: Survey of Treasury’s                                  Page 9
                        Trade Facilitation Operations (OIG-07-039)
exporters’ access to development projects that are financed
concessionally.

Measurement and Reporting of Trade Promotion Activities

IA does not have a system for measuring and reporting the results
of its trade promotion activities since staff believe that it is not a
trade promotion agency and such activities represent a small
fraction of the totality of IA’s work. IA staff also told us that it
would be difficult for IA to devise quantitative measures of results
because most of its work is policy-related, not programmatic. IA
management has been hesitant to implement or rely on such
performance measures in the belief that such measures could
encourage poor results. For example, IA reported on the number of
free trade agreements underway or completed in Treasury’s Fiscal
Year 2005 Performance and Accountability Report. ITT staff cited
this as a poor measure, since it is usually better to have no
agreement than to have a bad agreement.

Annual Budget Related to Trade Promotion Activities

Although identifying Treasury’s expenditures related to trade
promotion was one of our initial objectives, we analyzed Treasury’s
budget for activities related to trade promotion, since it was budget
authority amounts that were reported in the National Export
Strategy. According to the 2006 National Export Strategy report,
Treasury’s fiscal year 2006 trade promotion budget authority was
$3 million.

IA determined this amount based on its work related to trade
promotion. That is, it identified the positions within the two offices
(ITT and ITF), as well as the various costs associated with those
positions (salary, benefits, travel, and a portion of overhead), and
then rounded that figure to the nearest million. We reviewed IA’s
budgetary documents to verify this process and identified a
variance of approximately $23,000, which we considered
immaterial.




INTERNATIONAL ASSISTANCE: Survey of Treasury’s                  Page 10
Trade Facilitation Operations (OIG-07-039)
Activities Related to Multilateral Development Banks

                         IDB and IDP are the primary offices performing MDB-related
                         activities. MDBs are international financial entities that finance
                         economic and social development projects and programs in
                         developing countries. The five major MDBs to which the U.S.
                         belongs are the World Bank Group, the Inter-American
                         Development Bank, the Asian Development Bank, the African
                         Development Bank, and the European Bank for Reconstruction and
                         Development. MDBs do not play a role in implementing free trade
                         agreements but most have trade-capacity-building programs.8

                         Office of Multilateral Development Banks

                         IDB is responsible for overseeing U.S. participation in most of the
                         major global and regional international development institutions.
                         Among its specific responsibilities are the following:

                         •   Advancing the U.S. development agenda for promoting
                             economic growth and reducing poverty through MDBs by
                             developing, implementing, and coordinating the U.S. position on
                             MDB operational and financial policies, projects, and programs.
                         •   Overseeing MDBs’ project proposals and country assistance
                             strategies.9
                         •   Developing internal guidance on MDB lending techniques and
                             instruments,10 which involves close and continuous interaction
                             with the governing bodies of the banks through the USEDs,
                             bank staff and management, shareholder governments, senior
                             Treasury officials, other U.S. agencies,11 and Congress.

8
  Trade-capacity-building programs are initiatives that promote foreign trade by increasing supply
capacity for the marketplace, improving competitiveness, reducing trade barriers, improving physical
infrastructure, developing public-private partnerships, and stimulating economic growth and
employment.
9
  A country assistance strategy is a document that links the development goals of an individual country
to the support that will be provided by an MDB.
10
     MDBs provide financing in the form of loans and grants.
11
  Among the other federal agencies involved with projects at the MDBs are the Departments of State,
Commerce, and Energy, the U.S. Trade Representative, and the Environmental Protection Agency.
These agencies review and provide feedback on grants and loans that will be brought before an MDB’s
board.

                         INTERNATIONAL ASSISTANCE: Survey of Treasury’s                         Page 11
                         Trade Facilitation Operations (OIG-07-039)
•   Preparing Treasury’s annual appropriations request for the U.S.
    contribution to MDBs.
•   Negotiating replenishments of the institutions and the policy
    reforms that are an integral part of the replenishments.

The U.S. MDB Reform Agenda – an Administration initiative to
increase the effectiveness of MDBs and make them more “results-
oriented” – has the following goals:

•   Making assistance effective through managing for results,
    supporting good performers, improving debt sustainability, and
    increasing grants.
•   Private sector-led economic growth and trade through
    promotion of small business, building good investment climates,
    liberalizing trade, and investing in infrastructure.
•   Good governance, increasing transparency, and fighting
    corruption.
•   Supporting U.S. foreign policy objectives through responding to
    global challenges.

Because many MDB loans are concessional (typically with no
interest and a longer grace period and maturity than other forms of
financing), these MDBs’ funding must be periodically replenished so
they can continue their financing operations. As a result, MDBs
enter into periodic replenishment negotiations with representatives
from funding nations. These replenishment negotiations are the
main vehicle used by the U.S. to secure its reform agenda. IDB is
responsible for developing proposals and briefing materials for each
MDB replenishment negotiation.

In recent replenishments, such as those in 2005 for the World
Bank’s International Development Association and the Inter-
American Development Bank’s Multilateral Investment Fund, the
U.S. obtained commitments for key reforms, including development
of results-based management systems; improved performance-
based allocation systems to distribute resources to countries that
can use them most effectively; and greater transparency and
increased efforts to combat corruption in countries, MDB loans and
grants, and the institutions themselves.




INTERNATIONAL ASSISTANCE: Survey of Treasury’s                Page 12
Trade Facilitation Operations (OIG-07-039)
                      IDB has also worked with other government agencies on issues
                      pertaining to projects at the MDBs. These agencies include the
                      Department of State, Department of Commerce, Department of
                      Energy, U.S. Trade Representative, and Environmental Protection
                      Agency. Discussions have also occurred between IDB staff and
                      groups from U.S. industry regarding improving procurement
                      opportunities for U.S. businesses at the MDBs.

                      Office of Development Policy

                      IDP’s goal is to set and help advance Treasury and U.S.
                      government policy priorities for promoting economic growth and
                      poverty reduction in developing countries. IDP focuses on aid
                      effectiveness, public expenditure management, social and
                      environmental safeguard policies, and financing mechanisms and
                      instruments. A current IDP effort involves working with foreign
                      governments and MDBs to develop and utilize indicators that allow
                      the public to track governments’ ability to effectively use
                      resources. IDP also provides policy advice and technical support to
                      other offices within IA, including IDB, the International Monetary
                      Policy Office, and the regional and functional offices. In addition,
                      IDP provides staff support to the Secretary of the Treasury in his
                      capacity as a member of the Board of Directors of the Millennium
                      Challenge Corporation12 and support for advancing international
                      policy priorities through international and regional forums.


                      Roles and Responsibilities of the U.S. Executive Directors at the
                      MDBs

                      The primary representative of the U.S. government at each MDB is
                      the USED. USEDs are appointed by the President and confirmed by
                      the Senate. They are considered to be employees of their
                      respective institutions and are not entitled to compensation from



12
   The Millennium Challenge Corporation is a U.S. government-owned corporation responsible for the
stewardship of the Millennium Challenge Account. The account is a mechanism used to provide foreign
aid to developing nations who meet certain criteria established by the Administration.




                      INTERNATIONAL ASSISTANCE: Survey of Treasury’s                         Page 13
                      Trade Facilitation Operations (OIG-07-039)
the U.S. government. USEDs have the responsibility of promoting
U.S. interests at their respective MDBs. USEDs work to support the
MDB Reform Agenda by regularly consulting with U.S. government
agency experts to ensure that projects at the MDBs are consistent
with U.S. policy goals and through their voice and vote on the
boards of directors at the MDBs, following guidance and
instructions from Treasury.

The USEDs also perform specific work to promote U.S. interests.
For example, the USED at the Inter-American Development Bank
conducts outreach activities to increase the awareness of
procurement opportunities at the Bank for the U.S. business
community. The USED at the African Development Bank has
worked to improve procurement policies at the Bank and to align
the Bank’s procurement policies with that of the World Bank. Also,
the USED at the European Bank for Reconstruction and
Development has worked to ensure that the programs being funded
by the Bank are within the scope of work intended in the Bank’s
charter.

Guidance Provided to U.S. Executive Directors

IDP and the IDB provide both formal and informal guidance to the
USEDs. Written memoranda to the USEDs constitute the formal
means of communication and are used when a project is of high
importance or when the USED will either abstain from voting or
vote no on a project. All such memoranda are signed by either the
Assistant Secretary for International Affairs or the Deputy
Assistant Secretary for International Development Finance and
Debt. Informal guidance provided by telephone and e-mail is used
when communicating on non-controversial issues. According to IDP
and IDB staff and USEDs whom we interviewed, the USEDs and IA
staff coordinate closely. This coordination includes daily contact
regarding project proposals and other issues at the banks. IDP and
IDB staff also review strategy papers prepared by MDBs and
provide feedback to the USEDs.

In addition, offices within IA compile an annual legislative
mandates manual to serve as guidance for the USEDs and MDB
desk officers in IA. This manual consolidates information on a
number of legal mandates that address U.S. interests at MDBs.

INTERNATIONAL ASSISTANCE: Survey of Treasury’s              Page 14
Trade Facilitation Operations (OIG-07-039)
Trade-Capacity-Building Programs at MDBs

U.S. trade capacity building is primarily a collection of existing
trade and development activities placed under one umbrella. In
2001, the U.S. government initiated a survey, administered by the
U.S. Agency for International Development, designed to capture
the nature and extent of existing trade-capacity-building activities.
The survey defined trade capacity building as activities meant to
help countries join the WTO, implement WTO agreements, and
build the capacity to benefit more broadly from a rules-based
trading system. For purposes of our report, we have categorized
trade-capacity-building activities as follows:

•   Trade facilitation—such as customs modernization and export
    promotion
•   Human resources and labor standards—such as workforce
    development and protecting worker rights
•   Agriculture development—such as promoting agribusiness
•   Financial sector development—such as monetary and fiscal
    policy reforms
•   Physical and economic infrastructure development—such as
    improving roads and ports
•   WTO-related—such as WTO awareness and WTO agreements
•   Governance, transparency, and interagency coordination

We found that the five MDBs included in our survey currently
operate or promote trade-capacity-building programs. For example,
the World Bank actively promotes the use of its financing, technical
assistance, and research capabilities for trade capacity building.
The Inter-American Development Bank promotes trade capacity
building, including through its support of the Central American Free
Trade Agreement. The Asian Development Bank supports trade
through technical assistance programs in its member countries. The
European Bank for Reconstruction and Development promotes
foreign trade through its Trade Facilitation Program. In addition, the
African Development Bank promotes trade capacity building
through its regional integration projects and through high level
workshops and seminars.




INTERNATIONAL ASSISTANCE: Survey of Treasury’s                 Page 15
Trade Facilitation Operations (OIG-07-039)
                Treasury Assessment of Trade-Capacity-Building Programs at MDBs

                Staff at IDP and IDB maintain documentation on the issues related
                to each of the projects at the MDBs, which includes a database of
                the voting records of the U.S. This documentation is used to
                determine whether a bank’s trade-capacity-building programs are
                addressing Treasury’s objectives and expectations in a particular
                area.

Treasury Input to the Annual National Export Strategy Report

                Treasury does not select the programs that are included in the
                annual National Export Strategy report. Report topics are selected
                by the TPCC Secretariat and the Department of Commerce official
                with oversight responsibility for TPCC. Agency contributions to the
                report are made in response to requests from the TPCC Secretariat.

                After the TPCC Secretariat has completed a draft report, it is
                circulated among the agencies for input, comments, and clearance.
                It is at this time that Treasury reviews the draft report, provides
                comments, and makes adjustments, as needed.

                                                ******

                We would like to extend our appreciation for the cooperation and
                courtesies extended to our staff during this audit. If you have any
                questions, please contact me at (202) 927-5400 or Alain Dubois,
                Director of Banking Audits, at (202) 927-0382. Major contributors
                to this report are listed in appendix 4.



                Marla A. Freedman
                Assistant Inspector General for Audit




                INTERNATIONAL ASSISTANCE: Survey of Treasury’s                Page 16
                Trade Facilitation Operations (OIG-07-039)
Appendix 1
Objectives, Scope, and Methodology




Objectives

In a letter dated August 4, 2006, Representatives Donald A.
Manzullo and John Mica, and then Representative Sue Kelly, U.S.
House of Representatives, requested our office to undertake a brief
survey of the Department of the Treasury’s (Treasury) trade
facilitation operations under the auspices of the Trade Promotion
Coordinating Committee (TPCC). The requestors made concurrent
TPCC-related requests to the Offices of Inspector General (OIG) of
other agencies, including the Department of Commerce,
Department of State, and U.S. Agency for International
Development. We coordinated with these other OIGs as
appropriate.

We developed our specific objectives in consultation with staff of
the House Committee on Small Business. Those objectives were to
identify (1) the offices involved in trade facilitation within
Treasury’s Office of International Affairs (IA), (2) the offices’
missions and partners in carrying out their missions, (3) how the
offices promoted U.S. exports, (4) how the offices measured and
reported the results of their trade promotion efforts, and (5) annual
Treasury expenditures associated with the promotion of U.S.
exports.

We also (1) determined what guidance Treasury provided the U.S.
representatives at selected multilateral development banks (MDB),
(2) asked how Treasury tracked whether MDBs’ trade-capacity-
building programs were achieving the results expected by Treasury,
and (3) determined how Treasury programs or activities are
selected for inclusion in the annual National Export Strategy report
issued by the Department of Commerce.

Scope and Methodology

Officials within Treasury and IA identified two offices within IA
that play a significant role in trade promotion – the Office of
International Trade and the Office of Trade Finance and Investment
Negotiations. We conducted interviews with appropriate Treasury
officials to identify (1) the offices’ partners in carrying out their
missions, (2) how the offices promote U.S. exports, and (3) how


INTERNATIONAL ASSISTANCE: Survey of Treasury’s                 Page 17
Trade Facilitation Operations (OIG-07-039)
Appendix 1
Objectives, Scope, and Methodology




the offices measured and reported the results of their trade
promotion efforts.

We obtained and reviewed budget-related documentation and
reviewed Treasury’s fiscal year 2007 Justification for
Appropriations to determine Treasury’s budget for activities related
to trade promotion. Although identifying Treasury’s expenditures
related to trade promotion was one of our initial objectives, we
subsequently decided to obtain information supporting Treasury’s
budget for activities related to trade promotion, since budget
authority amounts were reported in the National Export Strategy.

We used Government Accountability Office definitions to identify
what constitutes trade capacity building. To determine the
Treasury’s policies, plans, and strategies related to trade capacity
building, we researched the Treasury and IA Web sites, interviewed
IA officials and staff, and obtained and reviewed documentation.

We also interviewed IA officials to (1) identify the offices
responsible for managing relationships with the MDBs,
(2) determine what guidance Treasury provides to the U.S.
representatives at selected MDBs, (3) identify the expectations and
evaluation criteria regarding MDB trade capacity building, and
(4) determine whether the MDB trade-capacity-building programs
are meeting their expectations and evaluation criteria. We also
obtained and reviewed guidance provided by Treasury to the U.S.
Executive Directors (USED) at MDBs.

We interviewed the USEDs at the five major MDBs to which the
United States belongs to determine the guidance they received
from Treasury and their roles and responsibilities as Executive
Directors and to identify the expectations and evaluation criteria
regarding their respective MDBs’ trade-capacity-building programs.
These five MDBs are the World Bank Group, the Inter-American
Development Bank, the Asian Development Bank, the African
Development Bank, and the European Bank for Reconstruction and
Development.

We obtained Treasury’s recent submissions for the annual National
Export Strategy report and identified the official within Treasury


INTERNATIONAL ASSISTANCE: Survey of Treasury’s                 Page 18
Trade Facilitation Operations (OIG-07-039)
Appendix 1
Objectives, Scope, and Methodology




who was responsible for coordinating the Treasury’s input. We
interviewed the official to (1) identify the criteria Treasury used to
determine what to include in the report and (2) identify and assess
the process for coordinating with the Department of Commerce the
input to be provided.

We conducted our review from November to December 2006 in
accordance with generally accepted government auditing
standards.




INTERNATIONAL ASSISTANCE: Survey of Treasury’s                 Page 19
Trade Facilitation Operations (OIG-07-039)
                           Appendix 2
                           Department of the Treasury, Office of International Affairs Organization Chart




                                                  Simplified Office of International Affairs Organization Chart
                                                                                               Under Secretary
                                                                                             International Affairs




                                                                                              Assistant Secretary
                                                                                             International Affairs




          Europe, Eurasia, and    Asian Nations      Technical Assistance   International Monetary       Development Finance             Trade Finance and          Africa and Middle   Investment Security
          Western Hemisphere                               Policy            and Financial Policy             and Debt                      Investment                     East
                                                                                                                                           Negotiations




                                                                                                                           Multilateral                 International Trade
                                                                                                                        Development Banks




                                                                                                                        Development Policy              Trade Finance and
                                                                                                                                                           Investment
                                                                                                                                                           Negotiations




                                                                                                                         International Debt
                                                                                                                               Policy




Source: Treasury Office of International Affairs



                           INTERNATIONAL ASSISTANCE: Survey of Treasury’s                                                                        Page 20
                           Trade Facilitation Operations (OIG-07-039)
Appendix 3
Management Comments




INTERNATIONAL ASSISTANCE: Survey of Treasury’s   Page 21
Trade Facilitation Operations (OIG-07-039)
Appendix 4
Major Contributors to This Report




Alain Dubois, Director, Banking Audits
Valerie A. Freeman, Audit Manager
Jaideep Mathai, Senior Auditor
Gregory M. Quantz, Program Analyst
A. Michelle Littlejohn, Program Analyst
Esther Tepper, Program Analyst
Rafael J. Cumba, Referencer




INTERNATIONAL ASSISTANCE: Survey of Treasury’s   Page 22
Trade Facilitation Operations (OIG-07-039)
Appendix 5
Report Distribution




The Department of the Treasury

   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Controls

Office of International Affairs

   Acting Under Secretary for International Affairs
   Director, Business Office

Office of Management and Budget

   OIG Budget Examiner

U.S. House of Representatives

   Representative Donald Manzullo
   Representative John Mica




INTERNATIONAL ASSISTANCE: Survey of Treasury’s           Page 23
Trade Facilitation Operations (OIG-07-039)
